               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Fiscal Year 2011 Postal Service
         Financial Statements Audit -
        San Mateo Accounting Service
                     Center

                       Audit Report




                                              January 18, 2012

Report Number FT-AR-12-009
                                                                       January 18, 2012

                                                     Fiscal Year 2011 Postal Service
                                             Financial Statements Audit – San Mateo
                                                          Accounting Service Center

                                                         Report Number FT-AR-12-009



IMPACT ON:
Financial reporting at the San Mateo,        with accounting principles generally
CA, Accounting Service Center (ASC)          accepted in the U.S., accounting
for fiscal year (FY) 2011.                   transactions at the San Mateo ASC are
                                             fairly stated in accordance with
WHY THE OIG DID THE AUDIT:                   accounting principles generally
The objectives of the audit were to          accepted in the U.S., general ledger
determine whether:                           account balances conform with the
                                             general classification of accounts on a
 Financial accounting policies and          basis consistent with that of the previous
  procedures provide for an adequate         year, and the Postal Service complied
  internal control structure and comply      with laws and regulations as they relate
  with accounting principles generally       to the San Mateo ASC and that have a
  accepted in the U.S.                       direct and material effect on the financial
                                             statements. We did not propose any
 Accounting transactions at the San         adjustments; however, we did identify
  Mateo ASC are fairly stated in             two issues regarding controls over
  accordance with accounting principles      contractual payables.
  generally accepted in the U.S.
                                             WHAT THE OIG RECOMMENDED:
 General ledger account balances            We are not making any
  conform to the general classification of   recommendations because
  accounts on a basis consistent with        management plans to consider the
  that of the previous year.                 contractual payables issues in their
                                             communication of control deficiencies
 The U.S. Postal Service complied with      for FY 2011.
  laws and regulations as they relate to
  the San Mateo ASC and that have a          WHAT MANAGEMENT SAID:
  direct and material effect on the          We provided a draft of this report to
  financial statements.                      management on December 15, 2011,
                                             and because we made no
WHAT THE OIG FOUND:                          recommendations, management chose
Financial accounting policies and            not to respond formally.
procedures provide for an adequate
internal control structure and comply        Link to review the entire report
January 18, 2012

MEMORANDUM FOR:           TIMOTHY F. O’REILLY
                          VICE PRESIDENT, CONTROLLER




FROM:                     John E. Cihota
                          Deputy Assistant Inspector General
                           for Financial Accountability

SUBJECT:                  Audit Report - Fiscal Year 2011 Postal Service Financial
                          Statements Audit – San Mateo Accounting Service Center
                          (Report Number FT-AR-12-009)

This report presents the results of our audit of the selected financial activities and
accounting records at the U.S. Postal Service San Mateo, CA, Accounting Service
Center for the fiscal year ended September 30, 2011 (Project Number 11BM006FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Susan Brownell
    Jean D. Parris
    Steven R. Phelps
    Paula S. Garner
    Corporate Audit and Response Management
Fiscal Year 2011 Postal Service Financial Statements Audit -                                                            FT-AR-12-009
 San Mateo Accounting Service Center



                                                 TABLE OF CONTENTS


Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Contractual Payables .......................................................................................................... 2

   Supplier Signature ........................................................................................................... 2

Progress on Prior Years’ Recommendations ..................................................................... 3

   Capital Property ............................................................................................................... 3

   Relocation Services Payments ....................................................................................... 4

   Shuttle Services Payments ............................................................................................. 4

Appendix A: Additional Information..................................................................................... 5

   Background ...................................................................................................................... 5

   Objectives, Scope, and Methodology ............................................................................. 5

   Prior Audit Coverage ....................................................................................................... 7
Fiscal Year 2011 Postal Service Financial Statements Audit -                                          FT-AR-12-009
 San Mateo Accounting Service Center


Introduction

This report presents the results of our audit of the selected financial activities and
accounting records at the U.S. Postal Service San Mateo, CA, Accounting Service
Center (ASC) for the fiscal year (FY) ended September 30, 2011 (Project Number
11BM006FT000). We conducted this audit in support of the independent public
accounting firm’s (IPA) overall audit opinions on the Postal Service’s financial
statements and internal controls over financial reporting. 1 This audit addresses financial
risk. See Appendix A for additional information about this audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. Also, the U.S. Congress enacted Sarbanes-Oxley
(SOX) legislation in calendar year 2002 to strengthen public confidence in the accuracy
and reliability of financial reporting. Section 404 of SOX requires management to state
its responsibility for establishing and maintaining an adequate internal control structure
and make an assertion on the effectiveness of the internal control structure over
financial reporting. The Postal Accountability and Enhancement Act of 2006 requires the
Postal Service to comply with Section 404 of SOX. The Board of Governors (Board)
contracted with the IPA to express an opinion on the Postal Service’s financial
statements and internal controls over financial reporting.

Conclusion

During our audit of the San Mateo ASC we noted:

   Financial accounting policies and procedures of the Postal Service provide for an
    adequate internal control structure 2 and comply with accounting principles generally
    accepted in the U.S.

   Accounting transactions at the San Mateo ASC impacting the general ledger
    account balances for assets, liabilities, equity, income, and expenses of the Postal
    Service are fairly stated in accordance with accounting principles generally accepted
    in the U.S.

   General ledger account balances conform with the general classification of accounts
    of the Postal Service on a basis consistent with that of the previous year.

   The Postal Service complied with laws and regulations as they relate to the
    San Mateo ASC and that have a direct and material effect on the financial
    statements.



1
  The IPA maintains overall responsibility for testing and reviewing significant San Mateo accounts and processes.
The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the IPA to ensure adequate
coverage.
2
  To ensure key controls are properly designed and operationally effective.
                                                          1
Fiscal Year 2011 Postal Service Financial Statements Audit -                                           FT-AR-12-009
 San Mateo Accounting Service Center


We did not propose any adjustments; however, throughout the year, we reviewed
internal controls over financial reporting and identified two issues regarding contractual
payables. In addition, the IPA identified information system control deficiencies 3
affecting the San Mateo ASC that were not in the scope of our audit and are not
reported here. 4 The IPA informed management of these issues on November 1, 2011.

Contractual Payables

As part of the overall review of controls over contractual payables, we identified issues
regarding supplier signatures and contract labor rates. Although these issues by
themselves and absent other controls do not have a material effect on the overall
financial statements, they assist in the overall contracting process by assuring the
Postal Service’s right to goods or services and corresponding obligation to pay
according to the terms of the contract. Good contracting controls collectively ensure that
payments correspond to authorized contracts. Management plans to consider these
issues in their communication of control deficiencies for FY 2011. As a result, we are
not making a recommendation at this time but will re-evaluate these issues as part of
our FY 2012 financial statements audit work.

Supplier Signature

We reviewed 25 contracts from the Contract Authoring Management System and found
one Basic Pricing Agreement (BPA) 5 that did not include a supplier’s signature. The
supplier’s signature acknowledges and authorizes the contract and documents their
responsibility to provide the Postal Service with the agreed upon goods or services.
Officials requested the supplier provide a signed copy of the contract on several
occasions, but the supplier did not respond.

Management stated that it is a good practice to receive a supplier signature on an
agreement. 6 They also stated that, although the supplier’s signature was missing, the
supplier performed the work, indicating acceptance of the agreement. Further, they
have extensive budgetary and financial controls in place, including invoice certification,
to ensure the Postal Service receives the goods or services at the intended price. A
supplier signature as part of a collective suite of contracting controls helps to provide
reasonable assurance that internal controls are maintained in all material respects.



3
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent, or detect and correct misstatements on a timely
basis.
4
  The information system control deficiencies included system administrators rights and capabilities to change their
accesses, no review of post-production changes to ensure the change management process was followed, and
errors on an Electronic Marketing Reporting System exception transaction listing that had not been corrected.
5
  Postal Service (PS) Form 8203, Order/Solicitation/Offer/Award. A BPA is an ordering agreement that permits
individuals designated by name or title to place orders with a maximum limit of $10,000 by telephone,
over-the-counter, or in writing. There is no obligation on either party to place or fulfill orders.
6
  Management also stated that a supplier signature on an agreement is not the only way for a supplier to
acknowledge acceptance in forming a binding contract.



                                                          2
Fiscal Year 2011 Postal Service Financial Statements Audit -                                           FT-AR-12-009
 San Mateo Accounting Service Center


Contract Labor Rates

We reviewed 25 invoices with labor costs processed through the Program Cost
Tracking System (PCTS) 7 and identified one instance where a labor rate was not
accurate. This occurred because personnel entered an incorrect labor rate and a control
did not exist to ensure labor rates entered into the PCTS were accurate. As a result, the
Postal Service underpaid a contractor approximately $935.

While the National Accounting Oracle Financials Application-Oracle Accounts Payable
System (NAOFA-OAP) includes a control limiting total payments to the committed
contract amounts, a control does not exist to ensure labor rates applied to contract
hours on individual invoices are accurate. Accurate labor rates as part of a collective
suite of contracting controls ensure the Postal Service pays its contractors according to
the terms of the contract. As a result of our audit, management corrected the labor rate
and has initiated action to pay the contractor the additional amount due.

Progress on Prior Years’ Recommendations

Capital Property

Since FY 2003, we determined that field-level controls over the accountability of capital
personal property needed improvement and, over those years, the Postal Service has
implemented several actions to improve controls. During FY 2011, management
reminded the sites to complete and certify the semiannual capital property inventory.
Asset Accountability Service Center (AASC) personnel were also available for questions
regarding the certification of capital property inventory. Additionally, the AASC website
gave material accountability officers (MAOs) and installation heads with intranet access
the ability to verify asset numbers, acquisition costs, and undepreciated balances for
capital property items selected as part of the semiannual capital property inventory. The
AASC website also provided a link to the instructions on how to complete the
certification report. MAOs and installation heads could access the AASC website and
obtain current information on the completion status of their semiannual capital property
certification reports. This same information was available by district and area.

During FY 2011, we reviewed the results of the Postal Service’s semiannual capital
property reviews for 25 finance numbers. 8 Of 66 capital personal property items they
reviewed, the sites located 47 items but could not locate 19 items assigned to
six finance numbers. All 19 items were fully depreciated. As a result, they removed the
items from the Property and Equipment Accounting System (PEAS). We subsequently
verified that all 19 items were removed from inventory. Because of management’s


7
  PCTS is a web-based system that facilitates tracking and invoicing contractors’ time, labor, and material expenses
associated with Information Technology (IT) projects or programs. PCTS is part of a suite of products the IT
department uses to provide and track deliverables, services, chargeback labor costs, and capital costs to internal
Postal Service customers.
8
  Postal Service Control Number 308.037.



                                                          3
Fiscal Year 2011 Postal Service Financial Statements Audit -                                     FT-AR-12-009
 San Mateo Accounting Service Center


continued and recent efforts, and the fact that we found no exceptions, we consider this
issue closed.

Relocation Services Payments

During FY 2010, we reported the Postal Service did not review supporting
documentation for relocation services as part of the payment process. 9 There was no
procedure in place to ensure invoices submitted by Cartus Corporation, the Postal
Service’s relocation management firm, were supported, as recommended by best
practices. We recommended management ensure they review documentation
supporting relocation service invoices. Management agreed with the recommendation
and stated they would conduct an annual formal review of relocation expenses.
Management implemented a program and began reviewing relocation expenses during
FY 2011. Accordingly, we consider this issue closed.

Shuttle Services Payments

Also during FY 2010, we reported that vehicle maintenance facilities (VMF) personnel
did not always adequately review or maintain supporting documentation for shuttle
service payments. We recommended management develop and implement standard
operating procedures for review and retention of U.S. Auto Club (USAC) invoices prior
to payment. Management agreed with the recommendation and stated they would
establish steps for documenting and reconciling monthly USAC invoices prior to
payment. Management's targeted implementation date was June 2011. Management
advised they provided the field offices with a draft Vehicle Maintenance Bulletin in
October 2011 and have targeted final publication of the bulletin by February 2012. We
will continue to evaluate the effectiveness of management’s efforts as part of our annual
financial statement audit work.




9
 Fiscal Year 2010 Postal Service Financial Statements Audit – San Mateo Information Technology and Accounting
Service Center (Report Number FT-AR-11-008, dated April 7, 2011).



                                                       4
Fiscal Year 2011 Postal Service Financial Statements Audit -                                       FT-AR-12-009
 San Mateo Accounting Service Center



                                Appendix A: Additional Information

Background

The San Mateo ASC is one of three ASCs Postal Service-wide. 10 The San Mateo ASC
functions as a large, centralized accounting and disbursement center and its employees
are responsible for accounts payable, 11 centralized postage payments, 12 capital
personal property, motor vehicles, and supply inventory.

We issued separate financial statements audit reports for headquarters and the Eagan
ASC and will issue a separate report for the St. Louis ASC. Further, in addition to the
overall opinions on the Postal Service’s financial statements and internal controls over
financial reporting, the Board’s IPA issued a separate report on its consideration of the
Postal Service’s internal controls and its test of compliance with certain provisions of
laws, regulations, contracts, and other matters. The purpose of that report was to
describe the scope of testing of internal controls over financial reporting and compliance
and the results of that testing, not to provide an opinion on internal controls over
financial reporting or on compliance. 13 The OIG issued a separate report for the audit of
the FY 2011 information system controls at the Eagan, San Mateo, and St. Louis ASCs;
and the Raleigh Information Technology Service Center. 14

Objectives, Scope, and Methodology

The objectives of the audit were to determine whether: 15

    Financial accounting policies and procedures of the Postal Service provide for an
     adequate internal control structure 16 and comply with accounting principles generally
     accepted in the U.S.

    Accounting transactions at the San Mateo ASC that impact the general ledger
     account balances for assets, liabilities, equity, income, and expenses of the Postal
     Service are fairly stated in accordance with accounting principles generally accepted
     in the U.S.

    General ledger account balances conform with the general classification of accounts
     of the Postal Service on a basis consistent with that of the previous year.
10
   Other ASCs are in St. Louis, MO and Eagan, MN.
11
   Includes accounting for inventory purchases, contract cleaners, miscellaneous disbursements, commercial credit
cards, relocation, and headquarters and field payables.
12
   The Centralized Account Processing System is an electronic postage payment system that provides business
mailers a method to pay postage at multiple post offices through a centralized account.
13
   In addition to the IPA’s work, these reports encompass work the OIG performed at headquarters, the three ASCs,
field sites, and the Raleigh, NC Information Technology Service Center.
14
   Fiscal Year 2011 Information Technology Internal Controls (Report Number IT-AR-12-003, dated January 9, 2012).
15
   The IPA maintains overall responsibility for testing and reviewing significant San Mateo ASC accounts and
processes. The OIG coordinated audit work with the IPA to ensure adequate coverage.
16
   To ensure key controls are properly designed and operationally effective.



                                                        5
Fiscal Year 2011 Postal Service Financial Statements Audit -                   FT-AR-12-009
 San Mateo Accounting Service Center



   The Postal Service complies with laws and regulations that have a direct and
    material effect on the financial statements taken as a whole.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. We conducted this audit from November 2010 through January 2012
in accordance with the standards of the Public Company Accounting Oversight Board
(United States) (PCAOB) and the standards applicable to financial audits contained in
Government Auditing Standards issued by the comptroller general of the U.S. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to limit audit risk to a low level that is, in our professional judgment,
appropriate for supporting the overall audit opinion on financial statements. Those
standards also require considering the results of previous engagements and following
up on known significant findings and recommendations that directly relate to the
objectives of the audit. An audit also includes obtaining a sufficient understanding of
internal controls to plan the audit and to determine the nature, timing, and extent of
audit procedures to be performed. We believe the evidence obtained provides a
reasonable basis for our conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements were free of material misstatement (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with PCAOB and
Government Auditing Standards may not detect a material misstatement. However, the
IPA and the OIG are responsible for ensuring that appropriate Postal Service officials
are aware of any significant deficiencies that come to our attention. We discussed our
conclusions with management officials on December 15, 2011, and since we did not
make any recommendations, management chose not to respond formally.

We relied on computer-generated data from several Postal Service financial systems,
including:

   Accounting Enterprise Data Warehouse Reporting.
   NAOFA-OAP.
   Enterprise Imaging and Workflow System.
   Material Distribution and Inventory Management System.
   eBuy2.
   Contract Authoring Management System.
   PEAS.
   PCTS.
   Vehicle Management Accounting System.
   Centralized Account Processing System.

We assessed the reliability of these systems’ data by performing specific internal control
and transaction tests, including tracing selected financial information to supporting
source records. For example, we verified that payments recorded in NAOFA-OAP were



                                                      6
     Fiscal Year 2011 Postal Service Financial Statements Audit -                               FT-AR-12-009
      San Mateo Accounting Service Center


     supported by certified invoices and the amounts were properly applied to the
     appropriate general ledger accounts. We determined that the data were sufficiently
     reliable for the purposes of this report.

     Prior Audit Coverage

                                              Final
                           Report            Report        Monetary
   Report Title            Number             Date          Impact               Report Results
Fiscal Year 2010        FT-AR-11-008        4/07/2011          $75,838   The Postal Service did not review
Postal Service                                                           supporting documentation for
Financial Statements                                                     relocation services as part of the
Audit – San Mateo                                                        payment process and personnel at a
Information                                                              VMF were not adequately reviewing
Technology and                                                           or maintaining supporting
Accounting Service                                                       documentation for shuttle services
Center                                                                   prior to payment. We also identified
                                                                         control deficiencies regarding
                                                                         vehicle sales requests and eBuy
                                                                         purchases. Management agreed to
                                                                         conduct an annual sampling of
                                                                         invoices to review supporting
                                                                         documentation for relocation
                                                                         services and to develop and
                                                                         implement a standard operating
                                                                         procedure for review and retention
                                                                         of USAC invoices prior to payment.
                                                                         See the Progress on Prior Years’
                                                                         Recommendations section of this
                                                                         report.




                                                           7
     Fiscal Year 2011 Postal Service Financial Statements Audit -                           FT-AR-12-009
      San Mateo Accounting Service Center


Fiscal Year 2009        FT-AR-10-008        2/11/2010           $0   San Mateo ASC personnel did not
Postal Service                                                       compare payee information from PS
Financial Statements                                                 Forms 3533, Application for Refund
Audit – San Mateo                                                    of Fees, Products, and Withdrawal
Information                                                          of Customer Accounts, to supporting
Technology and                                                       documentation to ensure payments
Accounting Service                                                   were addressed to the correct
Center                                                               customers. Also, they could not
                                                                     validate invoice information
                                                                     transmitted by the non-mail freight
                                                                     transportation suppliers.
                                                                     Management revised standard
                                                                     operating procedures to include a
                                                                     review of supporting documentation
                                                                     and contacted the suppliers who
                                                                     began sending email notifications
                                                                     that indicate both the total number
                                                                     and values of the invoices. Also, we
                                                                     continued to identify issues with
                                                                     capital personal property. See the
                                                                     Progress on Prior Years’
                                                                     Recommendations section of this
                                                                     report.
Fiscal Year 2008        FT-AR-09-004        12/9/2008           $0   Management continued to improve
Postal Service                                                       semiannual capital property reviews
Financial Statements                                                 and property accountability. See the
Audit – San Mateo                                                    Progress on Prior Years’
Information                                                          Recommendations section of this
Technology and                                                       report.
Accounting Service
Center




                                                           8
